            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
       STATE OF NEW MEXICO
     DEPARTMENT OF EDUCATION
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2001

    January 2003    A-77-03-00007




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      January 16, 2003                                                  Refer To:

To:        Candace Skurnik
           Acting Director
           Management Analysis and Audit Program Support Staff

 From:     Assistant Inspector General
           for Audit

Subject:   Management Advisory Report: Single Audit of the State of New Mexico, Department of
           Education, for the Fiscal Year Ended June 30, 2001 (A-77-03-00007)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of New Mexico, Department of Education (DoE), for the Fiscal Year
           ended June 30, 2001. Our objective was to report internal control weaknesses,
           noncompliance issues, and unallowable costs identified in the single audit to SSA for
           resolution action.

           Chester W. Mattocks, Certified Public Accountant (CPA) performed the audit. Results
           of the desk review conducted by the United States Department of Education (USDOE)
           have not been received. We will notify you when the results are received if USDOE
           determines the audit did not meet Federal requirements. In reporting the results of the
           single audit, we relied entirely on the internal control and compliance work performed by
           the CPA and the reviews performed by USDOE.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The New Mexico Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The DoE,
           Division of Vocational Rehabilitation (DVR) is the New Mexico DDS’ parent agency.
Page 2 - Candace Skurnik

The single audit disclosed the following findings:

1. DoE accounting records and official State accounting records were not reconciled
   timely. The corrective action plan indicated that its new accounting system will
   ensure timely reconciliations (Attachment A, Page 1).

2. DoE cash draw records (including Federal grant balance records) and the State
   Treasurer's Federal cash draw records were not reconciled, which resulted in an
   unresolved DDS cash balance of $676. The corrective action plan indicated that
   improved reconciliation procedures were implemented and all unresolved cash
   balance differences were corrected (Attachment A, Pages 2-3 and 6).

3. DoE vouchers were not posted to the general ledger timely. The corrective action
   plan indicated that its new accounting system will allow for timely postings
   (Attachment A, Pages 2-3).

4. DDS did not encumber $63,692 of its year-end medical expenditures. The
   corrective action plan indicated that procedures would be implemented to properly
   encumber year-end medical expenditures in its financial system (Attachment A,
   Page 5).

5. Expenditures related to vocational rehabilitation services were not documented in
   accordance with Federal requirements. The corrective action plan indicated that
   employees were informed of proper documentation procedures (Attachment A,
   Page 7).

We recommend that SSA ensure DoE implemented proper procedures to:

1. Reconcile accounting and cash draw records with State accounting records.

2. Post payment vouchers to the general ledger.

3. Encumber year-end DDS medical expenditures.

4. Document vocational rehabilitation expenditures in accordance with Federal
   requirements.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. We bring these matters to your
attention as they represent potentially serious service delivery and financial control
problems for the Agency.

·   Financial status reports were not submitted timely (Attachment B, Page 1).

·   Staff took annual leave without advance approval (Attachment B, Page 2).
Page 3 - Candace Skurnik

·   Internal Revenue Service form W-4 could not be located for one employee
    (Attachment B, Page 2).

Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey at
(816) 936-5591.




                                       Steven L. Schaeffer

Attachments
                                                                                            Attachment A
                                                                                              Page 1 of 8

STATE OF NEW MEXICO
DEPARTMENT OF EDUCATION

SCHEDULE OF FINDINGS AND, QUESTIONED COSTS (continued)
FOR THE YEAR ENDED JUNE 30 2001

III. FEDERAL AWARD FINDINGS AND QUESTIONED COSTS

This finding applies to each of the Department's major programs.

01-1- RECONCILIATION TO DFA

Statement of finding: The State Department of Education did not reconcile its trial balances to the final
DFA balances as of June 30, 2001 in a timely manner. Reconciliations were not completed until
December 2001. It also appears that monthly reconciliations were not being done in the latter half of
fiscal 2001.

Criteria: DFA requires state agencies to reconcile their records to the DFA reports on a monthly basis.

Questioned Costs: None

Effect: The State Department of Education was not in compliance with DFA requirements. Numerous
adjustments were made to both the Department's records and DFA records. Several receipts were posted
as "receipts held in suspense" at DFA and remained there all year.

Cause: Turnover and the shortages in staff meant that there weren't trained individuals available to
reconcile for part of the year.

Recommendation: The State Department of Education should reconcile to DFA in a timely manner as
required.

Management's Response: The SDE agrees with this finding. Reconciliations were not completed in a
timely manner due to staff shortages resulting from retirements and resignations. The SDE has a highly
complex number of funding sources resulting in a large learning curve for new staff. Temporary
experienced personnel were hired to assist in catching up the reconciliations. First priority was to
reconcile the prior year and then proceed in reconciling the new fiscal year. The current State Department
of Education accounting package is antiquated and is very complex and cumbersome, which makes
reconciling a lengthy and difficult process. It is not an integrated system and is supported by an exorbitant
number of individually created spreadsheets. A new accounting system has been purchased and will be
implemented July 1, 2002. This will place the Department in a position of having real time data and
timely reconciliations.

For the current fiscal year ending June 30, 2002, the SDE has begun an aggressive reconciliation process.
The Department has hired multiple highly experienced temporary staff, including a former NM State
Treasurer Cash manager and two former DFA Financial managers, to assist staff with mentoring and
catch-up. To avoid a recurrence of forgotten or missed deadlines, managers will implement and monitor a
task schedule. A consistent process of reconciling from source document to schedules to general ledger to
DFA to State Treasurer and to internal and Federal Reports has been implemented. All current year
reconciliations will be current by April 30, 2002.
                                                                                           Attachment A
                                                                                             Page 2 of 8

STATE OF NEW MEXICO
DEPARTMENT OF EDUCATION

SCHEDULE OF FINDINGS AND QUESTIONED COSTS (continued)
FOR THE YEAR ENDED JUNE 30.2001

We have begun a reassessment of all financial policies and procedures and we are assessing the
organizational structure of the Finance, Transportation, and Administrative Services Division to ensure
that critical financial functions, such as reconciliations, are documented and kept current, that they
comply with DFA requirements, and that staff are trained properly.


This finding applies to each of the Department's major programs.

01-2 - RECONCILIATIONS OF CASH HELD IN STATE TREASURER'S FUNDS

Statement of finding: During the reconciliation to DFA performed in December 2001, the Department
found that federal funds drawn from the U.S. Department of Education in the amount of $10,311,921.91
were returned to the U.S. Department of Education by Wells Fargo Bank. This reduction in cash was
shown on the DFA records and the DFA reconciliation to the State Treasurer's Office. However, the State
Department of Education was not aware of it. It would appear that the State Department of Education has
not been reviewing the cash reconciliation provided by DFA.

Criteria: Although cash reconciliations are prepared by DFA, it is the State Department of Education's
responsibility to ensure the correctness of the reconciliations and monitor the balance.

Questioned Costs: None

Effect: Distributions were made to the schools based on this drawdown. As a result, DFA showed a
deficit as of June 30, 2001. Fortunately, the State Department of Education was able to draw the funds
again in December 2001.

Cause: Lack of oversight of the cash reconciliation process was the major cause.

Recommendation: The State Department of Education should review the monthly DFA cash
reconciliations as part of their own cash reconciliation on a monthly basis.

Management's Response: The SDE agrees with this finding. Please refer to finding 01-1 for the
Department's response. In addition, the Fiscal Services Unit is now verifying the electronic transfer of
funds and deposits with the Office of the State Treasurer and against federal reports to prevent this
situation from occurring again.


This finding applies to each of the Department's major programs.

01-6 - VOUCHERS NOT POSTED TIMELY - FISCAL YEAR 2001

Statement of finding: Vouchers were not posted in a timely manner to the general ledger.

Criteria: Good internal control dictates that transactions should be posted in a timely manner.
                                                                                            Attachment A
                                                                                              Page 3 of 8

STATE OF NEW MEXICO
DEPARTMENT OF EDUCATION

SCHEDULE OF FINDINGS AND QUESTIONED COSTS (continued)
FOR THE YEAR ENDED JUNE 30.2001

Questioned Costs: None.

Effect: Transaction totals from the general ledger could not be relied upon. Thus, records were not ready
for audit.

Cause: Department records were not maintained in a timely manner.

Recommendation: All vouchers should be posted timely and reconciled to subsidiary records.

Management's Response: The SDE partially agrees with this finding. In addition to what has been
described in the cause above, the current accounting system was not compatible with new DFA
requirements, which included changes in the account number fields to include requirements for "ORG"
codes on documents from Performance-Based Budget Agencies and a requirement for bar coding on all
documents. It was hoped that our current system with minor modification could accommodate some of
the mandatory changes; however, that was not possible. A short-term solution has been implemented with
the use of the DFA "GUI" system for processing purchase orders and payment vouchers. As a long-
solution, the SDE has purchased a new financial package that will meet all financial requirements and
will be implemented July 1, 2002. A training plan for staff using the new financial package is in place and
has been scheduled for the month of June 2002.


This finding applies to each of the Department's major programs.

01-8 - (FEDERAL) RECONCILIATION TO THE U.S. DEPARTMENT OF EDUCATION
"GAPS" SYSTEM

Statement of finding: Formal reconciliations of grant balances to the amount reported by the U.S.
Department of Education electronic reporting system or "GAPS" were not being done on a quarterly
basis.

Criteria: The U.S. Department of Education requires grantees to reconcile their records of remaining
grant balances to the GAPS system as part of control over cash management, on a quarterly basis.

Questioned Costs: None

Effect: The State Department of Education is not in compliance with cash management requirements.
Misspostings to the general ledger between federal programs were not noticed and corrected by SDE staff
on a timely basis.

Cause: New staff were not trained in this area. Also, staff shortages made it difficult to do timely
reconciliations.
                                                                                         Attachment A
                                                                                           Page 4 of 8

STATE OF NEW MEXICO
DEPARTMENT OF EDUCATION

SCHEDULE OF FINDINGS AND QUESTIONED COSTS (continued)
FOR THE YEAR ENDED JUNE 30 2001

This finding applies to each of the Department's major programs. The Questioned Costs apply to
84.027A - IDEA-B.

01-10 - FLOWTHROUGH DISBURSEMENT AND SEVERANCE TAX BOND SCHEDULES
NOT RECONCILED

Statement of finding: a) The schedules prepared by the State Department of Education of the
disbursements by district and by program, did not reconcile to the general ledger for many programs. It
was also noted during testing that some disbursements were posted to the wrong school districts on the
schedules; b) Of six districts tested by confirmation, one district received a duplicate payment in the
amount of $113,505 for the IDEA-B Program; and c) Some severance tax bond receivable schedules were
not reconciled to DFA reports.

Criteria: Good, accounting practices require that supporting schedules reconcile to the general ledger and
to DFA reports. Also, reports generated to send out to the local school districts should be accurate.

Questioned Costs: Known questioned costs: $113,505.

Effect: These schedules could not be relied upon for test purposes. Amounts reported to local school
districts were in error for some programs.

Cause: There were vouchers not recorded or reconciled in the wrong district on the supporting schedules.
There were vouchers and deposits not posted on the general ledger or incorrectly posted.

Recommendation: Supporting schedules should be reconciled to the general ledger on a regular basis
and to available DFA reports.

Management's Response: The SDE is providing training and guidance to new staff that oversee flow
through disbursements of General Obligation and Severance Tax bonds. Schedules are being reconciled
between the General ledger and the DFA for the current fiscal year. The process will be automated upon
implementation of the new Accounting system July 1, 2002.


This finding applies to each of the Department's major programs.

01-12 - TIMELY POSTING OF ACTIVITY TO THE GENERAL LEDGER - FISCAL YEAR 2002

Statement of finding: During the testing performed for accounts payable, it was noted that as of
December 31, 2001, the State Department of Education had not yet posted any payment vouchers to their
general ledger for the fiscal year ending June 30, 2002.

Criteria: Each agency of the state is required to keep its own records.

Questioned Costs: None
                                                                                        Attachment A
                                                                                          Page 5 of 8

STATE OF NEW MEXICO
DEPARTMENT OF EDUCATION

SCHEDULE OF FINDINGS AND QUESTIONED COSTS (continued)
FOR THE YEAR ENDED JUNE 30, 2001

Effect: The State Department of Education was not keeping its own records in fiscal year 2002 as of
December 31, 2001. DFA reports had to be relied on to determine the completeness of testing for
accounts payable and other events that happened after year end.

Cause: Shortages in staff and a pending change in accounting systems caused the lag in entering vouchers
to the general ledger.

Recommendation: An internal general ledger should be maintained and up to date at all times.

Management's Response: The SDE agrees with this finding. In addition to what has been described in
the cause above, the current accounting system was not compatible with new DFA requirements, which
included changes in the account number fields to include requirements for "ORG" codes on documents
from Performance-Based Budget Agencies and a requirement for bar coding on all documents. It was
hoped that our current system with minor modifications could accommodate some of the mandatory
changes; however, that was not possible. The SDE has purchased a new financial package that will meet
all financial requirements and will be implemented July 1, 2002. Also, please note response with Finding
01-1.


84.126A - Rehabilitation Services - Vocational Rehabilitation
93.802 - Disability Determination

01-13 - DVR ENCUMBRANCES

Statement of finding: The Division of Vocational Rehabilitation did not properly encumber $12,953 of
year end expenditures, while the Disability Determination Section did not encumber $63,692 of year end
expenditures.

Criteria: Encumbrances provide assurance that proposed expenditures are allowed by the budget and
help ensure that budgets will not be over expended according to state statute.

Questioned Costs: None

Effect: Both the DVR and DDS budget expenditures were understated.

Cause: Encumbrances were not properly accounted for.

Recommendation: The Division of Vocational Rehabilitation and the Disability Determination Section
should ensure that its newly installed accounting system will properly account for encumbrances.
Additionally both DVR and DDS should implement year end procedures to ensure that all outstanding
expenditures are properly encumbered.
                                                                                          Attachment A
                                                                                            Page 6 of 8

STATE OF NEW MEXICO
DEPARTMENT OF EDUCATION

SCHEDULE OF FINDINGS AND QUESTIONED COSTS (continued)
FOR THE YEAR ENDED JUNE 30.2001

Management's Response: The Disability Determination Service (Fund 501) did not establish
encumbrances for their medical evaluations requests (MER's) at year end as had been the accepted
practice for several years between DVR and DFA. Consultive Examination (CE's) authorized between
June 18, 2001 and June 28, 2001 were not encumbered due to the DFA cut-off date for year end closing
(June 18th), which did not allow posting of encumbrances after this date. DDS is not able to halt their
obligation of activities for consulting examinations during this time period. DVR's Financial staff worked
with the State of New Mexico Department of Financial Administration (DFA) to allow these FYE 2001
expenditures to be paid out of the current FYE 2002 budget period and to allow DDS to budget additional
funds to cover these additional expenditures which will be reimbursed by the federal government.

DVR (Fund 500) did have certain expenditures which were not properly encumbered.

DVR's Financial Unit will work with program staff to ensure that all year end expenditures are properly
identified for encumbrance at year end through the MIP financial system at 2002 year end.


84.126A - Rehabilitation Services - Vocational Rehabilitation
93.802 - Disability Determination

01-14 - DVR - UNLOCATED CASH DIFFERENCES

Statement of finding: The Division of Vocational Rehabilitation and the Disability Determination
Section had the following unlocated cash differences as of June 30, 2001:

        Division of Vocational rehabilitation            $ 1,245.00
        Disability Determination Section                    (675.71)
                Total                                    $ 569.29

Criteria: Unlocated cash differences between the New Mexico Department of Finance and
Administration and the accounting records of DVR and DDS should be resolved without exception.

Questioned Costs: None

Effect: DDS and DVR's cash balances were overstated.

Cause: DDS and DVR's internal cash balances were not properly reconciled to the New Mexico
Department of Finance and Administration cash balances.

Recommendation: The Division of Vocational Rehabilitation and the Disability Determination Section
should implement procedures to ensure that cash is properly reconciled and that all unlocated cash
differences are fully investigated and resolved.
                                                                                             Attachment A
                                                                                               Page 7 of 8

STATE OF NEW MEXICO
DEPARTMENT OF EDUCATION

SCHEDULE OF FINDINGS AND QUESTIONED COSTS (continued)
FOR THE YEAR ENDED JUNE 30, 2001

Management's Response: The Division of Vocational Rehabilitation and the Disability Determination
Section have implemented reconciliation procedures to identify cash balance differences between DVR
and DDS and The Office of the State Treasurer. As of July 1, 2001, all cash differences have been
identified that dated as far back as 1993. Journal vouchers were submitted to DFA to reduce known
reconciled differences, however certain residual balances remained in their respective funds. The above
mentioned amounts are unlocatible and will require adjustment to DFA in order to adjust our internal
records.


84.126A - Rehabilitation Services - Vocational Rehabilitation
93.802 - Disability Determination

01-15 - DVR CASE AUDIT

Statement of finding: Out of sixty cases examined, it was found that:

        1. One plan could not be found where a plan was required.
        2. One expenditure took place that was not authorized by the client's plan.
        3. No authorization could be found in the client's file to support an expenditure.

Criteria: Expenditures spent on behalf of clients of DVR services must fall within a client's plan, these
expenditures must be supported by proper authoritative documentation, and must be spent within the
dates directed by the client's plan.

Questioned Costs: None

Effect: Expenditures spent which do not met the compliance regulations established by the federal
grantor could cause the expenditure to be considered a questioned cost, or could lead to penalties assessed
by the federal grantor.

Cause: Established procedures were not followed by DVR personnel.

Recommendation: DVR should review its documentation procedures as they pertain to case services.

Management's Response: In regards to items 1 though 3 above, we concur with the finding and offer the
following response:

        Item 1. The issue has been communicated to the caseload staff regarding the appropriate
                procedure. Further training will be provided as needed.

        Item 2. These issues have been communicated to the caseload staff regarding the appropriate
                procedures. Further training will be provided as needed.
                                                                                             Attachment A
                                                                                               Page 8 of 8

STATE OF NEW MEXICO
DEPARTMENT OF EDUCATION

SCHEDULE OF FINDINGS AND QUESTIONED COSTS (continued)
FOR THE YEAR ENDED JUNE 30 2001

        Item 3. A copy of the authorization (screen print if original not available) will be inserted into the
                case file to provide required supporting documentation. Staff have been advised on
                appropriate procedure.


84.126A - Rehabilitation Services - Vocational Rehabilitation
93.802 - Disability Determination
                                                                                         Attachment B
                                                                                           Page 1 of 2

STATE OF NEW MEXICO
DEPARTMENT OF EDUCATION

SCHEDULE OF FINDINGS AND QUESTIONED COSTS (continued)
FOR THE YEAR ENDED JUNE 30.2001

Recommendation: Ending grant balances by: program, by grant year, should be reconciled to a quarterly
report of remaining grant balances from the GAPS system. Such reconciliations are important to ensure
that drawdowns recorded in the general ledger are accurate and that the U.S. Department of Education has
correctly recorded the drawdowns on their system.

Management's Response: The SDE agrees with this finding. Please refer to Finding 01-1. In addition, it
is anticipated that all reconciliations will be complete by April 30, 2002.


84.048A - Carl Perkins - Vocational Education Basic

01-9 - FINANCIAL STATUS REPORTS

Statement of finding: Financial Status Reports for the Carl Perkins - Vocational Education Basic were
not available for review.

Criteria: SDE is required to submit Financial Status Reports for certain grants to the agencies awarding
the grants in a timely manner.

Questioned Costs: None

Effect: The State Department of Education is not in compliance with the reporting requirements of certain
grants or with the OMB Circular A-133 Compliance Supplement.

Cause: The Carl Perkins - Vocational Education Basic Financial Status Reports have not been prepared
for the fiscal year ended June 30, 2001 because of a turnover in personnel, per State Department of
Education personnel.

Recommendation: Financial Status Reports should be filed within ninety days after the end of reporting
periods for all grants requiring Financial Status Report submissions.

Management's Response: The SDE agrees with this finding. All required reports have been submitted
per the OMB Circular A-133 Compliance Supplement. The FTAS will implement a reporting schedule
with due dates, assignments, back ups and report status, which management will review monthly.
                                                                                              Attachment B
                                                                                                Page 2 of 2

01-16 - DVR PERSONNEL FILES

Statement of finding: Out of thirty employees tested, five took annual leave without receiving
preapproved authorization as is required by the personnel manual. One employee's W-4 could not be
located.

Criteria: Per DVR's Personnel policy DVR 111, Attendance, Leave and Overtime, annual leave should
be requested at least 24 hours in advance and all employees' personnel files should contain current W-4
tax withholding information.

Questioned Costs: None

Effect: Staff taking annual leave without advance approval could lead to unexpected absences, and lack
of proper W-4 documentation could lead to incorrect federal tax and state tax withholding.

Cause: Established policies are not being followed.

Recommendation: The personnel policies referred to above should be followed.

Management's Response: The leave slips that the auditors found out of compliance were researched and
it was determined in all cases that the leave was verbally approved prior to having been taken. DVR is not
centrally located; it has 23 offices throughout the state with the supervisor located in one area and satellite
offices located in several other locations. This make it impossible to have a leave slip approved in writing
prior to taking the leave. Approval for the leave is given in advance either verbally or by e-mail and the
leave slips are signed at the time the employee time sheets are approved.

An electronic timesheet system is being considered by DVR that should alleviate this problem. In the
meantime, an adjustment will be made to the leave slip on line that will be checked off when verbal
approval is given.

The W-4's are required in order to place the employee on the vendor list and to insure that the pay is taxed
at the correct level. DFA would automatically inform us with an error message, if the tax information had
not been entered into the HRMS. This employee transferred from another agency and all of his deductions
transferred as well on the HRMS, so it was not noted that it was missing. The employee has completed a
new W-4 and it is in his file.
                 Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations and cash
flow. Performance audits review the economy, efficiency and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from SSA, as well as conducting
investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and
current activities and their results to the Commissioner and Congress.


                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
